              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Idaho National Engineering and
Environmental Laboratory's Strategic
Initiative Fund




DOE/IG-0601                                 May 2003
IDAHO NATIONAL ENGINEERING AND ENVIRONMENTAL
LABORATORY'S STRATEGIC INITIATIVE FUND

TABLE OF
CONTENTS



               Use of Funds

               Details of Finding ...................................................................... 1

               Recommendations and Comments ........................................... 7


               Appendices

               1. Prior Audit Reports ............................................................... 8

               2. Objective, Scope, and Methodology ..................................... 9

               3. Management Comments .................................................... 11
USE OF FUNDS


Strategic Initiative   We found that Bechtel BWXT Idaho, LLC (Bechtel) used the Strategic
Fund                   Initiative Fund to supplement the Laboratory Directed Research and
                       Development (LDRD) Program; pay for activities that should have been
                       direct funded; and, pay for questionable activities such as advertising,
                       marketing, and direct selling, that did not directly benefit the site's
                       predominant activity, environmental cleanup efforts. Also, the
                       associated costs were not appropriately allocated to benefiting
                       programs.

                                                 LDRD Augmentation

                       Department Order 413.2A, Laboratory Directed Research and
                       Development, defines how LDRD funds are to be used and provides
                       annual funding limitations. One requirement in the order is that non-
                       LDRD funds should not be used to supplement LDRD initiatives.
                       Bechtel, however, in an approach that appears inconsistent with this
                       policy, specifically requires program offices to demonstrate how the
                       Strategic Initiative Fund will be integrated with the program's LDRD
                       activities. In this regard, we identified several instances in which the
                       Strategic Initiative Fund was used to augment LDRD funds to
                       accomplish the technical goals of specific LDRD projects. For
                       example:

                          •   Two INEEL employees traveled to St. Petersburg, Russia in
                              April 2002 for work related to an ongoing LDRD project. The
                              LDRD fund was charged $9,728 for the cost of one employee,
                              and the Strategic Initiative Fund was charged $6,701 for the cost
                              of the other employee. According to management, it is
                              appropriate to allocate the costs of a trip if both LDRD and
                              business development activities are pursued, as occurred in this
                              case. While we agree this is appropriate, evidence reviewed
                              indicated that the employee's activities were centered on
                              technical considerations, such as projected waste streams and
                              potential design configurations for a pilot system being
                              constructed at the INEEL. Further, upon returning, the
                              employees submitted identical trip reports detailing the technical
                              aspects of the research and development work with no mention
                              of mission development.

                          •   The Subsurface Science Initiative budgeted $1 million of
                              Strategic Initiative Funds in FY 2002 for "…sponsoring LDRD
                              projects that meet the technical objectives of the initiative, and



Page 1                                                                        Details of Finding
                enhance INEEL's R&D infrastructure through the acquisition of
                research equipment, and the design and construction of research
                laboratories." The objectives of the Subsurface Science Initiative
                are to enhance the INEEL's scientific and engineering
                capabilities and to provide better options for cleanup, monitoring,
                and long-term stewardship of contaminated sites.

            •   An INEEL scientist traveled to Torres del Paine National Park in
                Chile during May 2001 to conduct pollutant and nutrient cycling
                research. The travel package stated "The primary objective of
                this trip was to collect a series of moss, forest litter, and soil
                samples at a long-term research site we established at the Park in
                1984." The Strategic Initiative Fund was charged $4,848 and the
                LDRD fund was charged $159 for the trip. Again, management
                stated that both LDRD and business development opportunities
                were explored on this trip. While business development may
                have been pursued, we found that the principle purpose of the
                trip was technical research in nature. In fact, 7 of the 8
                objectives of the trip were technical research oriented. The
                business development objective stated "plans will be discussed
                for developing and submitting proposals for external funding to
                continue the research…" The auditors concluded that since the
                large majority of the trip was to support the LDRD project, the
                LDRD project should have paid the large majority of the costs.
                However, as it happened, the Strategic Initiative Fund paid for
                97 percent of the costs.

         According to Bechtel management, LDRD and business development
         funds, while separate in purpose, are aligned to achieve specific
         laboratory strategic priorities. Management stated that certain LDRD
         projects and the Strategic Initiative Fund share the same goal, at a
         strategic level, and thus, use generic scope of work. Bechtel
         management further stated that the Strategic Initiative Fund does not
         augment LDRD; rather, it is used only for mission development
         activities. However, based on the documentation provided to us, we
         concluded that the Strategic Initiative Fund has been used, as the cited
         examples illustrate, to directly support activities that center on technical
         LDRD activities.

                                       Direct Funding

         The Federal Acquisition Regulation (FAR) requires that any cost that
         can be identified specifically with a final cost objective shall be directly
         charged to that objective. We identified instances, however, in which

Page 2                                                            Details of Finding
         the Strategic Initiative Fund paid for activities that, based on the work
         performed, directly benefited a specific program or project. For
         example:

            •   INEEL paid $755,000 for "roadmapping" of a Nuclear Energy
                project from the Strategic Initiative Fund in FYs 2001 and 2002.
                In contrast, a similar roadmapping project INEEL performed for
                the Office of Environmental Management (EM) was paid
                directly from EM funds.

            •   In July and August 2002, an INEEL employee traveled to
                Beijing, China to attend a conference at Nuclear Energy's
                request, at a cost of $7,027. Rather than charging the
                employee's travel and labor costs directly to a Nuclear
                Energy-funded project, Bechtel charged the cost to the Strategic
                Initiative Fund.

         Bechtel management stated that the goal of the roadmapping activities
         was to acquire direct funding for these activities. In order to acquire the
         funding, they had to demonstrate that INEEL had the technical
         capability to effectively perform the work. In addition, the trip was
         appropriate since there were mission development opportunities in
         establishing international relationships with Chinese scientists.
         However, in our view, these activities should have been directly funded
         by the benefiting program as required by the applicable acquisition
         regulation.

                                    Marketing Activities

         Additionally, Bechtel used the Strategic Initiative Fund to pay for
         certain marketing and advertising activities. Such activities, while
         allowable under the terms of the contract, do not directly contribute to
         the site's predominant activity, environmental cleanup. For example,
         the fund was used to prepare a "site tour CD" and a "technical
         capabilities CD" for marketing purposes. Presumably, the intent of
         these CDs was to familiarize potential customers with the INEEL's
         products, services, and service capabilities.

         Bechtel management stated that using the Strategic Initiative Fund for
         marketing purposes is appropriate since Bechtel is required by its
         contract to enhance the capabilities of the INEEL. The Department, in
         responding to the official draft report, stated that the prohibition against
         such costs typically apply to advertising, marketing, and direct selling


Page 3                                                           Details of Finding
         costs associated with the corporate entity (Bechtel), not those of the
         Departmental entity (INEEL). For example, with respect to
         advertising costs, such costs may be allowable where the primary
         purpose of the activity is to facilitate contract performance in support
         of the Department's mission. Further, management stated that the
         costs associated with the Strategic Initiative Fund were reasonable in
         amount and were not costs incurred to promote Bechtel's interest, but
         rather to promote INEEL.

         We recognize that contractors are allowed to incur advertising,
         marketing, or direct selling costs in certain situations where the
         primary purpose of the activity is to support the Department's
         mission or where specifically required for contract performance.
         However, given the scale of environmental cleanup work ongoing at
         INEEL, we question whether using cleanup funds for these purposes
         is in the Department's best interest. In our judgment, additional
         Department policy on mission development costs is needed to help
         determine whether these costs are reasonable.

                                   Allocation of Costs

         We also questioned the method by which Bechtel allocated costs to
         program offices to operate the Strategic Initiative Fund. Specifically,
         the audit questions Bechtel's inclusion of the fund as part of the
         general and administrative (G&A) expense pool, which is funded
         through an indirect cost recovery process. According to Cost
         Accounting Standards, expenses included in the G&A pool should
         benefit multiple final cost objectives and be administratively
         impractical to assign the costs directly. Further, indirect allocation
         of the costs should result in roughly the same allocation as if the
         costs had been assigned directly to benefiting cost objectives.

         However, our audit found that Strategic Initiative Fund costs were
         easily identifiable to the benefiting programs, and programs funding
         the Strategic Initiative Fund did not receive benefits in roughly the
         same proportion as their contributions. In Fiscal Year 2002, the
         Strategic Initiative Fund was spent on 13 separate initiatives or
         divisions. Examples of these initiatives include the Generation IV
         Nuclear Energy Systems Initiative and the Environmental
         Stewardship Initiative. Funds spent on these activities can easily be
         assigned to benefiting programs. Rather than assigning these costs
         to benefiting programs, however, the costs were distributed to all
         programs through the G&A account.



Page 4                                                       Details of Finding
                      As a result, contributions of funds by programs to the G&A expense
                      pool were not proportional to the benefits received. For example, in
                      Fiscal Year 2002, EM contributed 68 percent of the cost but received
                      only 17 percent of the benefits. Conversely, National Security
                      programs contributed about 2 percent of the cost and received 29
                      percent of the benefits. A comparison of funds contributed and
                      funds used to benefit each major sponsor in FY 2002 follows:

                       Source and Use of the Strategic Initiative Fund in Fiscal Year 2002




                       Program Sponsor          Source of Funds            Use of Funds


                       EM                     $6,165,500   68%         $1,505,000    17%
                       National Security         168,800    2%          2,590,000    29%
                       EE/RE/SC/FE               225,100    2%          1,814,500    20%
                       Nuclear Energy            879,200   10%          1,925,000    21%
                       Work for Others         1,265,600   14%                  0     0%
                       Other                     322,700    4%          1,192,400    13%

                       TOTAL                  $9,026,900   100%        $9,026,900   100%



                      Based on the amount contributed and benefits received, as shown
                      above, EM spent about $4.6 million to, in essence, subsidize mission
                      development activities for other INEEL program offices. We found
                      similar results for FY 2001.

                      Management stated that it was more appropriate to include the
                      Strategic Initiative Fund with the G&A pool because it benefited the
                      entire site. However, we take issue with this position. These costs,
                      in accordance with applicable cost accounting standards, should be
                      allocated at the lowest level where the cost/benefit relationship
                      exists, in this case directly to the benefiting program.

Department Guidance   We also found that the Department did not have adequate policies
                      and procedures to control mission development activities, and that
                      Bechtel's contract was unclear as to the allowability of advertising,
                      marketing, and direct selling expenses.




Page 5                                                                   Details of Finding
                   The lack of Department policy governing the establishment and use
                   of mission development funds and activities was recognized in 2000,
                   when Congress directed the Department to conduct a review of
                   overhead expenditures at its sites, including INEEL. Among other
                   things, the review highlighted $7.6 million of program/business
                   development costs at INEEL as an area where spending guidance
                   may be needed and where direct funding would improve
                   accountability. Specifically, the review concluded that "…while
                   costs appear to be allowable under current contract terms and
                   agreements, additional guidance would be helpful so that
                   [Department] staff can readily determine that the levels and types of
                   spending for such activities are reasonable; and rather than have
                   some activities funded through overhead, more accountability could
                   be provided if they were funded through a [Department] direct
                   program." Despite the conclusions reached in this review, the
                   Department had not created policies and procedures that defined
                   limits for mission development activities.

                   In the absence of Department policy, Bechtel established informal
                   guidelines as to how the Strategic Initiative Fund should be used.
                   Based on our review of these guidelines and our discussions with
                   management, we concluded that Bechtel considers it appropriate to
                   use the fund for any costs as long as it can demonstrate a potential
                   business development opportunity. As noted in the examples we
                   cited, however, Bechtel's approach does not always ensure that the
                   use of the fund is consistent with sound business practices.

Questioned Costs   In our opinion, the $24 million spent on the Strategic Initiative Fund
                   between FY 2000 and FY 2002 could have been used more
                   effectively by the sponsoring program offices to meet mission
                   requirements. Also, some or all of the $24 million spent on fund
                   activities appear questionable according to contract terms and the
                   FAR. Finally, it appears that INEEL exceeded its LDRD
                   administrative limit of $23.5 million for FY 2001 and $21 million in
                   FY 2002 by augmenting its LDRD funds with expenditures charged
                   to the Strategic Initiative Fund.




Page 6                                                                Details of Finding
RECOMMENDATIONS       We recommend that the Acting Chief Financial Officer, in
                      coordination with the Under Secretary for Energy, Science and
                      Environment:

                         1. Perform a review of Bechtel's use of its Strategic Initiative
                            Fund to determine (a) whether LDRD ceilings have been
                            exceeded; and, (b) whether other Department contractors are
                            employing similar overhead allocations; and,

                         2. Develop and implement policies and procedures for mission
                            development activities prohibiting the use of mission
                            development funds or other indirect cost pools to supplement
                            existing LDRD funds.

                      In addition, we recommend that the Manager, Idaho Operations
                      Office, clarify the terms of the Bechtel contract that address costs
                      commonly used in mission development, such as advertising,
                      marketing, and selling costs.

MANAGEMENT REACTION   The Acting Chief Financial Officer generally did not concur with the
                      audit finding and recommendations, stating that the audit's
                      supporting arguments were inconclusive. In response to
                      recommendation 1(a), management's response stated that the
                      contracting officer deemed the costs questioned in the report
                      allowable. With regard to recommendation 2, management stated
                      that any new prohibitions would be duplicative of policies that
                      already exist. However, management did agree with
                      recommendation 1(b) to review the Strategic Initiative Fund's uses to
                      ensure the fund is used appropriately and LDRD funds are not being
                      augmented. Based on results of the review, clarifying guidance will
                      be issued to other offices. In addition, the Idaho Operations Office
                      agreed to clarify the terms of the Bechtel contract pertaining to
                      mission development activities. We have included management's
                      written comments in their entirety as Appendix 3.

AUDITOR COMMENTS      In our view, a final determination of the appropriateness of Strategic
                      Initiative Fund expenditures should not be made until the
                      Department completes a thorough, independent review of fund uses.
                      Further, the examples cited in this report suggest that a Department-
                      wide policy is needed to define appropriate uses of mission
                      development funds and to prohibit the use of advertising, marketing,
                      and direct selling activities to attract new customers for local projects
                      and programs.


Page 7                                                Recommendations and Comments
Appendix 1

                                           PRIOR REPORTS


•   Research and Development at Lawrence Livermore National Laboratory, (DOE/IG-0511, July 2001).
    The audit concluded that the Laboratory performed Research and Development (R&D) that was not
    authorized by the Department. For Fiscal Years (FY) 1998 through 2000, the audit identified 194
    projects that involved R&D for which there was no contractual authority to do the work. Laboratory
    management circumvented the work authorization process by funding the R&D through overhead
    accounts. The audit recommended that the Laboratory discontinue unauthorized R&D, establish
    procedures to prevent overhead accounts from being used to fund unauthorized R&D, submit a
    description of all technical activities to be funded from overhead accounts, and reimburse the
    Department for the cost of unauthorized R&D.

•   Better Performance Reporting Could Aid Oversight of Laboratory-Directed R&D Program,
    (GAO-01-927, September 2001). Since FY 1992, the Department's multi-program national laboratories
    have spent over $2 billion on LDRD projects. All LDRD projects reviewed at the five laboratories met
    the Department's guidelines for selection. In addition, each of the five laboratories had created the
    internal controls necessary to reasonably ensure compliance with the Department's guidelines. The
    audit recommended improved performance information reporting for the LDRD program.

•   Management of Laboratory Directed Research and Development at the National Renewable Energy
    Laboratory, (WR-B-99-05, July 12, 1999). The National Renewable Energy Laboratory (NREL)
    funded 21 unqualified projects as LDRD and spent about $2.5 million on projects that did not meet the
    requirements of the Department's LDRD Program. In addition, NREL did not properly account for
    some LDRD costs, and some projects incurred questionable housing allowance costs.

•   Management of the Laboratory Directed Research and Development Program at the Lawrence
    Livermore National Laboratory, (CR-B-98-02, November 14, 1997). Actions taken in FYs 1996 and
    1997 by the Department and Lawrence Livermore National Laboratory increased the level of
    discretionary research work conducted at Livermore by an equivalent of $19 million. This increased
    level of discretionary research was primarily obtained by: removing G&A allocations from LDRD
    projects; using performance fee revenues and licensing and royalty income for discretionary research;
    and assessing a 6 percent LDRD surcharge on intra-Departmental requisition orders from other
    Department laboratories.




Page 8                                                                                Prior Audit Reports
Appendix 2

OBJECTIVE     The objective of this audit was to determine whether the Idaho National
              Engineering and Environmental Laboratory's (INEEL) use of and
              distribution of costs associated with the Strategic Initiative Fund were
              appropriate.

              The audit was performed from October 21, 2002, to January 31, 2003,
SCOPE         at the Idaho Operations Office and Bechtel BWXT Idaho, LLC
              (Bechtel) in Idaho Falls, Idaho. The audit scope was limited to the
              activities of the Strategic Initiative Fund from Fiscal Years 2000
              through 2002.

METHODOLOGY   To accomplish the audit objective, we:

                 • Interviewed Idaho Operations Office and Bechtel personnel
                   responsible for the Strategic Initiative Fund and the Laboratory
                   Directed Research and Development (LDRD) Program;

                 • Reviewed foreign travel paid from the Strategic Initiative Fund
                   and the LDRD Fund for Fiscal Years 2001 and 2002;

                 • Obtained and reviewed planning documents for the Strategic
                   Initiative Fund;

                 • Researched Federal and Departmental regulations related to
                   LDRD and mission development activities;

                 • Reviewed findings from prior audit reports regarding LDRD and
                   mission development activities; and,

                 • Assessed internal controls and performance measures
                   established under the Government Performance and Results Act
                   of 1993.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to allocating Strategic Initiative Fund costs
              at the INEEL. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. We relied on the contractor's automated cost
              accounting system to accomplish our audit objective and conducted
              tests to ensure reliability of the data.


Page 9                                         Objective, Scope, and Methodology
Appendix 2 (continued)

                     We held an exit conference with the Team Leader, Accounting and
                     Contract Finance Team, Office of Financial Policy and the Director,
                     Financial Services Division, Idaho Operations Office on May 1, 2003.




Page 10                                             Objective, Scope, and Methodology
Appendix 3




Page 11
             Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                              IG Report No.: DOE/IG-0601

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
